                            AUDIT REPORT                                   IG-04-011




Report Recipients:
SSC/AA00/Director, John C.
  Stennis Space Center                 STENNIS SPACE CENTER’S
                                        PRESSURE VESSEL AND
                                        PRESSURIZED SYSTEM
                                     PROGRAM NEEDS SIGNIFICANT
                                           IMPROVEMENTS

                                                 February 4, 2004


 cc:
 M/Associate
   Administrator for
   Space Flight
 Q/Associate
   Administrator for
   Safety and Mission
   Assurance
 O/Management
   Systems




                             OFFICE OF INSPECTOR GENERAL
                             Released by: _[original signed by]_______________
 National Aeronautics and    David M. Cushing, Assistant Inspector General for Auditing
 Space Administration
IG-04-011                                                           February 4, 2004
 A-02-020-01

          Stennis Space Center’s Pressure Vessel and Pressurized
             System Program Needs Significant Improvements

Stennis Space Center (Stennis) did not properly manage its pressure vessels and
pressurized systems (PV/S) program. We found that Stennis did not follow NASA
requirements and guidelines for recertifying, maintaining and repairing, and documenting
its PV/S to ensure safe and reliable operation (Appendix B contains appropriate
definitions including certification and recertification; Appendix D describes NASA’s
PV/S program policy and guidelines). Proper management of the PV/S program is
important because of the risks associated with the pressurized and volatile contents used
in the Center’s aging systems. At least 175 of Stennis’ 344 operating pressure vessels are
more than 35 years old. Although it has had minor accidents with its PV/S, Stennis has
had no major accidents. However, failure to perform adequate recertifications and
maintenance and to make needed repairs puts Stennis at high risk for accidents that could
result in loss of or harm to personnel, flight hardware, and vital test facilities and
equipment. For example, an exploding pressure vessel could potentially propel metal
shards and shrapnel in a variety of directions.

Because Stennis’ first priority was to meet propulsion test schedules, PV/S users would
not schedule systems outages to perform PV/S recertifications, maintenance and repairs.
In addition, the organizational reporting structure limited the Pressure Systems
Manager’s ability to correct problems. Specifically, the Pressure Systems Manager
reported directly to the Propulsion Test Directorate and lacked the authority to suspend
propulsion testing to perform recertification, maintenance, and repairs. Finally, Stennis’
use of numerous PV/S databases that often contained conflicting and unreliable data
made effective PV/S management extremely difficult.

Stennis conducted an assessment of the PV/S program concurrently with our audit and
confirmed the problems that we identified. As a result, Stennis is taking steps to address
its pressure systems management structure and to determine other needed corrective
actions. For example, in February 2003, the Stennis Center Director appointed a new
Pressure Systems Manager within the Center Operations Directorate, and Stennis is
developing a risk-based inspection approach to pressure vessel management.

PV/S Recertifications Were Mismanaged

Stennis recertified many of its cryogenic barge vessels and test stand run-tanks without
performing required visual inspections and nondestructive tests on the inner pressure
vessels (barge vessels and run-tanks are composed of an inner and outer vessel). Many
pressure vessels were also being operated with expired certifications.




                                             1
Recertifications of Cryogenic Barge Vessels and Test Stand Run-Tanks Were
Incomplete. Stennis’ policy of partial recertification of its cryogenic barge vessels and
test stand run-tanks eliminated required visual inspections and nondestructive tests that
ensure the structural integrity of vessels and run-tanks used to support Space Shuttle
Main Engine and other rocket engine tests. A recertification consists of a procedure by
which a previously certified (documented status that qualifies a vessel or system to
operate in the service for which it is intended) vessel or system, by appropriate tests,
inspections, examinations, and documentation, is qualified to continue or be returned to
operations at the designed pressure. To avoid rocket engine test delays from downtime
required for a complete recertification of the outer and inner vessels of the barge vessels
and run-tanks, Stennis adopted a policy of recertifying the outer vessels based on results
of visual inspections and nondestructive tests, and only partially recertifying the inner
vessels using engineering analyses (stress calculations, fracture mechanics, and
operational load history). For example, the liquid hydrogen run-tanks at the “A” test
stands require recertification every 5 years. Although Stennis was not always meeting
the 5-year recertification requirement, Stennis had partially recertified the run-tanks
based primarily on engineering analyses at various times since their installation in 1974.

Stennis routinely used engineering analyses to partially recertify the barge vessels and
run-tanks until systems outages made the inner vessels available for the visual inspection
and nondestructive testing required for a complete recertification. However, because
Stennis rarely took the barge vessels and run-tanks out of service, pressure vessel
inspectors were unable to perform complete recertification. As a result of performing
only partial recertification, Stennis is operating its barge vessels and test stand run-tanks
with limited assurance that they are safe and reliable.



        Liquid
        hydrogen
        run tank




                         Figure 1. The arrow shows the liquid hydrogen
                         run-tank on test stand A2.

During 2002, Stennis removed the A2 test stand from service for refurbishment. In
December 2002, the PV/S inspector visually inspected the inner vessel of the liquid
hydrogen run-tank and found darkened welds. Darkened welds are an indicator that

                                               2
nondestructive (acoustic emissions) testing should be performed to determine the
structural integrity of the run-tank. The Center Configuration Control Board did not
initially approve the nondestructive tests. However, based on our audit observations that
many of Stennis’ PV/S were out of certification, the Board ordered that nondestructive
tests be performed prior to putting the A2 test stand back in service. As a result, Stennis
recertified the run-tank in May 2003 after performing acoustic emissions testing to
determine that the tank was structurally sound.

Prior to a May 2002 inspection of liquid hydrogen barge vessel V-138, Stennis had not
internally tested its three liquid hydrogen barge vessels (V-138, V-139, and V-140) for
recertification since being placed in service in the mid-1960s. In 1990, Stennis waived
the requirement to recertify the liquid hydrogen barges’ inner vessels due to adverse
impact to the Space Shuttle Main Engine test schedule. The waiver stipulated that
Stennis could recertify the inner vessels during fiscal years 1991 and 1992 with minimum
impact to the test schedule. However, Stennis did not recertify the inner vessels. Instead,
Stennis changed its recertification procedure in September 1991 to exempt the liquid
hydrogen barge vessels from the recertification requirements. The exemption allowed
Stennis to inspect and recertify the vessels as prescribed by engineering analysis and at
time intervals determined by the analysis. Stennis’ justification for the change was that
the liquid hydrogen barge vessels were critical systems to the Space Shuttle Main Engine
program, and the time required to perform internal inspections for recertification was
rarely available. Stennis did not recertify any inner vessels until May 2002 when it
performed an internal inspection and acoustics emissions test on liquid hydrogen barge
vessel V-138 while it was out of service for refurbishment. A final recertification report
was issued in April 2003. The inner vessels of the remaining two liquid hydrogen barge
vessels (V-139 and V-140) have not been recertified.




                        Figure 2. One of Stennis’ three 270,000-gallon
                        liquid hydrogen barges shown docked at the
                        B1/B2 test facility.

Since being put into service in the mid-1960s, Stennis’ six liquid oxygen barge vessels
have been partially recertified using engineering analyses on the inner vessel. Unlike the
liquid hydrogen barge vessels, Stennis did not waive the recertification requirement for
the liquid oxygen barge vessels. Further, Stennis did not exempt the liquid oxygen barge
vessels from the recertification requirements of its operating procedure for recertifying

                                               3
pressure vessels. As a result, Stennis does not have adequate assurance based on
inspections and tests that the six liquid oxygen barge vessels are being operated in a safe
and reliable manner.

Stennis also discovered in 1969 that the liquid hydrogen barge vessels (V-138, V-139,
and V-140) had sustained significant damage to the baffles that separate the inner vessel
into three parts. The baffles were reversed in direction, which was considered major
structural damage. A 1969 engineering evaluation by General Electric Company of
vessel V-138 states “damage to the vessel is major and complete repairs including
removal of the existing baffles and installation of new baffles will be necessary to return
the vessel to a condition suitable for permanent use.” The report further states that with
minor repairs, the vessel could be used on a temporary basis to complete the present
testing program, preferably on a stand-by basis. Subsequent inspections of V-139 and
V-140 identified that these vessels also had inverted baffles. Although it made some
minor repairs to the vessels, Stennis never replaced the damaged baffles and has
continued to use the damaged vessels on a regular basis. Stennis recertified V-138 in
April 2003 after a comparison of 1969 photographs to photographs that were taken in
May 2002 showed no further damage to the baffles, and acoustic emissions tests showed
no significant findings in the structural integrity of the inner vessel. Although Stennis
has not performed inspections and acoustic emissions tests to determine whether the
inner vessels of V-139 and V-140 are structurally sound, the vessels continue to be used
regularly.

Pressure Vessels Operated Without Recertification. Stennis did not recertify its
pressure vessels within the intervals established by NASA guidelines. As of April 2003,
Stennis was operating 117 (34 percent) of its 344 active pressure vessels in an uncertified
condition. Past-due recertifications ranged from about 1 month to about 8 years. Of the
117 uncertified vessels, 24 were less than 1 year past due for recertification, 15 were
from 1 to 3 years past due, and 78 were from 3 to almost 8 years past due.

From October 2000 through March 2003, Stennis inspected and tested some pressure
vessels, but it did not prepare recertification reports that finalized the recertification
process by notifying managers of vessel inspection and test results. For example, in
October 2001, Stennis inspected and tested 60 of the 78 vessels that were more than 3
years past due for recertification. However, Stennis did not issue until June 2003 the
required final recertification report verifying the inspection results. Stennis inspected
and tested three additional vessels in 2002 for which final reports were issued in April
and May 2003. NASA standards require that recertification reports be prepared
immediately following inspections and tests of pressure vessels. Stennis management
needs to have prompt knowledge of vessel inspection and test results so it can mitigate
risks that could jeopardize safe and reliable operation of pressure vessels or discontinue
operations.

Stennis has 55 other pressure vessel certifications expiring before October 2004.
Consequently, Stennis faces a surmounting problem to ensure safe and reliable operation
of its pressure systems. Stennis plans to address this problem by implementing a risk-

                                             4
based inspection program to base pressure vessel recertification on risk rather than the
current time-based approach to vessel recertification. With the risk-based program,
Stennis can evaluate the circumstances of each of its vessels and tailor an inspection and
test program accordingly.

PV/S Maintenance and Repairs Were Not Performed

Stennis had not adequately maintained or repaired its PV/S. PV/S inspectors reported
deficiencies such as system leaks; corrosion; set pressures of relief devices beyond
tolerances; paint breakdown; missing or disconnected ground wires; and missing
identification, certification, and proof test tags. The general condition of PV/S showed
that preventive maintenance and corrective actions were often not performed.

The primary reason maintenance and repairs were not performed was because PV/S
program officials were unable to obtain systems outages from users. Also, PV/S
problems were unresolved because the Pressure Systems Manager and the Pressure
Systems Committee did not assign corrective actions for reported problems. Finally, the
contractor responsible for repairs routinely cited Stennis’ Allowable Leak Standard as
justification for not making needed repairs for problems reported by inspectors. The
standard allows Stennis to continue operations with leaks that do not pose a safety or
operational hazard and are uneconomical to fix. However, the lead PV/S inspector told
us that his primary concern is with the safety of continuing operations rather than the cost
associated with loss of product and system repairs when he reports a problem on a
discrepancy and correction report (document used to identify and control the disposition
and correction of significant problems). For example, following an October 2001
inspection of a high-pressure air system, inspectors prepared a discrepancy and correction
report for an audible leak from a severely corroded component that was caused by
contact of dissimilar metals. In January 2003, we observed inspectors as they identified
the same leak and corrosion reported in 2001. When the problem was reported in 2001,
Stennis’ contractor cited provisions of the Allowable Leak Standard as justification for
continuing operations with the leak. Because the deficiencies were not repaired, Stennis
risked system failure for more than 1 year. The lead PV/S inspector informed us that
corrosion caused by dissimilar metals is an ongoing problem at Stennis and would
eventually result in system failures if left uncorrected.

PV/S Program Databases Were Unreliable

Stennis did not effectively manage its PV/S program because Stennis used numerous
independent databases containing similar data that was not shared and concurrently
updated, and was not reliable. As a result, Stennis could not depend on its databases for
complete and accurate PV/S information needed for scheduling and performing
inspections and recertifications, and for overall PV/S program management. The NASA
Safety Policy for PV/S requires that each Center establish a configuration management
system for PV/S and update documentation for any new and modified PV/S. The policy
further requires that the configuration management system ensure that the documentation
always shows the most recent, as-operated configuration of the PV/S.

                                             5
Stennis maintained the official PV/S configuration database (drawings) in the Sitewide
Operation and Repair Documentation system maintained in the Central Engineering Files
Office, but PV/S inspectors used systems drawings from a different database to perform
in-service inspections. The Pressure Systems Design Engineer did not update the
drawings in either database to reflect changes reported by inspectors. For example, in
September 2001, inspectors reported that several valves and other components had been
added to a liquid hydrogen system. Despite the reported changes, the Pressure Systems
Design Engineer did not update either database. Consequently, databases containing the
drawings of this liquid hydrogen system are inaccurate. The lead inspector informed us
that drawings used to perform inspections were inaccurate for about 75 percent of the
inspections performed.

Obtaining an accurate PV/S drawing was further complicated because Stennis maintained
at least three other configuration management databases for drawings at the Component
Test Complex, the High Pressure Gas Facility, and the “A” and “B” test stands.
Modifications to PV/S drawings in these three databases were not always recorded in the
Sitewide Operation and Repair Documentation system. Consequently, the accuracy of
the official PV/S configuration management database was questionable.

Stennis also had other databases for managing requirements such as scheduling
inspections of pressure relief valves, calibrating pressure gauges, managing inventories of
spare parts, managing pressure vessel inspections and recertifications, and tracking
discrepancy and correction reports. In many cases, Stennis used multiple databases to
manage each requirement. In 2001, Stennis purchased a system software package to
manage its PV/S program and to eliminate the use of some PV/S databases. However,
PV/S officials could not use the software to effectively manage the program because they
did not (1) plan for enough system users when acquiring the software license,
(2) implement the software Centerwide, (3) use all of the data elements needed, and
(4) validate system data and correct errors after the initial data input. Although the
Pressure Systems Manager told us that the software could be a viable management tool,
he had neither the resources to address system shortcomings nor the authority to require
Centerwide system use. Stennis cannot effectively manage and operate its PV/S program
without a system capability that provides ready access to reliable data supporting all
PV/S requirements.




                                            6
Recommendations, Management’s Response, and Evaluation of Management’s
Response

To improve PV/S management, the Stennis Center Director should:

   1. Plan and schedule systems outages for recertification of the inner vessels of
      the aging cryogenic barge vessels and test stand run-tanks that never
      received a complete recertification. Priority in scheduling the
      recertifications should be given to liquid hydrogen barge vessels V-139 and
      V-140.

Management’s Response. Concur. Stennis recertified all test stand run-tanks with the
exception of the test stand A-1 run-tanks, which were taken out of service pending
recertification. Stennis has identified all uncertified pressure vessels, established a
recertification plan, and prepared a recertification budget. Pending recertification of the
vessels, Stennis waived the recertification requirements until November 2004. Stennis
will remove from service those vessels that have not been recertified by the waiver
expiration date. The complete text of management’s response is in Appendix E.

Evaluation of Management’s Response. Management’s planned actions are responsive
to the recommendation. Although we did not evaluate Stennis’ justification for waiving
recertification requirements until November 2004, we will evaluate whether Stennis has
complied with its recertification plan as part of the audit follow-up process. The
recommendation is resolved, but will remain undispositioned and open for reporting
purposes until corrective actions are completed.

   2. Plan and schedule PV/S outages to recertify, maintain, and repair systems
      according to NASA requirements.

Management’s Response. Concur. Stennis will schedule pressure system outages in
conjunction with each system’s pressure vessel recertification outage. While systems are
down, Stennis will perform maintenance, make repairs, and identify discrepancies that
will be corrected during periodic inspections (see Appendix E).

Evaluation of Management’s Response. Management’s planned actions are responsive
to the recommendation. The recommendation is resolved, but will remain
undispositioned and open for reporting purposes until corrective actions are completed.

   3. Update the official Sitewide Operation and Repair Documentation system to
      reflect the current as-operated PV/S status, require that all PV/S
      modifications become part of the official drawings, and direct Center
      officials to use these drawings for inspections and recertifications.

Management’s Response. Concur. Stennis chartered a Tiger Team to study the
accuracy of the documentation associated with Test Stand Operational Systems,

                                             7
including PV/S, and recommend to management how to improve the Configuration and
Documentation Control Program. The PV/S Program will incorporate the team’s
recommendations and will require PV/S modifications to become part of the official
drawings that will be used for all PV/S inspections and certifications (see Appendix E).

Evaluation of Management’s Response. Management’s planned actions are responsive
to the recommendation. The recommendation is resolved, but will remain
undispositioned and open for reporting purposes until corrective actions are completed.

   4. Select software for Centerwide PV/S management, and consolidate or
      electronically link databases when practical.

Management’s Response. Concur. Stennis has selected MAXIMO as its PV/S
management software and will consolidate its PV/S databases into MAXIMO where
practical for maintenance, inspection, and certification management (see Appendix E).

Evaluation of Management’s Response. Management’s planned actions are responsive
to the recommendation. The recommendation is resolved, but will remain
undispositioned and open for reporting purposes until corrective actions are completed.



Appendixes

Among the appendixes, note Appendix B, which contains background information on
Stennis PV/S including applicable definitions and Appendix D, which identifies the
NASA requirements for managing PV/S.




                                            8
List of Appendixes

Appendix A – Status of Recommendations

Appendix B – Background

Appendix C – Objectives, Scope, and Methodology

Appendix D – NASA Policy, Procedures, and Guidelines for Pressure
             Vessel and Pressurized Systems Management

Appendix E – Management’s Response

Appendix F – Report Distribution




Acronym Used in the Report

PV/S – Pressure Vessels and Pressurized Systems




                                         9
                Appendix A. Status of Recommendations


Recommendation No.     Resolved      Unresolved   Open/ECD*    Closed
       1                  X                       11/07/2004
       2                  X                       11/07/2004
       3                  X                       04/30/2004
       4                  X                       05/31/2004

* ECD – Estimated Completion Date.




                                        10
                             Appendix B. Background

The Stennis Space Center (Stennis) Propulsion Test Directorate mission is to provide
safe, efficient, and responsive rocket propulsion test services to NASA, other
Government agencies, and the commercial propulsion development community. These
services include testing and flight certifying rocket propulsion systems for the Space
Shuttle and future generation space vehicles at Stennis’ three test complexes. Stennis
uses various pressure systems to handle the gaseous and/or liquid materials (such as
hydrogen, oxygen, nitrogen, helium, air) needed for its testing program. Stennis’
pressure systems, by the very nature of their contents and operating parameters, create
hazards to people and the surrounding environment. For example, liquid hydrogen, an
asphyxiant, can cause severe burns at cryogenic temperatures, is highly flammable, and
easily ignited. Liquid oxygen, also an asphyxiant that causes severe burns, is not
flammable, but accelerates the ignition of materials that are normally considered
noncombustible. Liquid and gaseous nitrogen are asphyxiants that can cause death if
inhaled.

The Propulsion Test Directorate relies on a Pressure Systems Manager, a Pressure
Systems Committee, and other NASA and contractor experts to manage the Center’s
pressure vessels and systems according to Agency policy, procedures, and guidelines. To
ensure structural integrity of its pressure systems and prevent mishaps from occuring,
Stennis is required to certify and periodically inspect and recertify its systems.

NASA Policy Directive 8710.5, “The NASA Safety Policy for Pressure Vessels and
Pressurized Systems (PV/S),” requires that PV/S be operated, inspected, maintained,
repaired, and certified/recertified in accordance with applicable codes, standards, and
regulations. NASA Procedures and Guidelines 1700.6A, “Guide for In-service
Inspection of Ground-Based Pressure Vessels and Systems,” defines certification, in-
service inspection, and recertification as follows:

   •   Certification – The documented status that qualifies a vessel or system to operate
       in the service for which it is intended.

   •   In-service Inspection – Inspection performed after a system has been initially put
       into service. These inspections are necessary to ensure that a system maintains its
       certification status.

   •   Recertification – The procedure by which a previously certified vessel or system,
       by appropriate tests, inspections, examinations, and documentation, is qualified to
       continue or be returned to operations at the designed pressure.




                                            11
              Appendix C. Objectives, Scope, and Methodology

Objectives

The audit objective was to determine whether Stennis Space Center (Stennis) effectively
managed its pressure vessel and pressurized systems (PV/S) program to ensure safe and
reliable operation of its pressure systems.

Scope and Methodology

We reviewed NASA and Stennis policy, procedures, and guidelines for managing PV/S.
We interviewed representatives from Stennis’ Propulsion Test Directorate, Center
Operations Directorate, and Safety and Mission Assurance Office; the facility operating
services contractor; and the test and technical services contractor. We performed visual
PV/S inspections, researched inspection and recertification reports, and accompanied
Stennis inspectors during an in-service inspection of a high-pressure air system. We
determined that computer-processed data were unreliable as a result of data errors and
inconsistencies; therefore, we did not rely on computer-processed data during the audit.

Management Controls Reviewed

We considered Stennis’ failure to adequately recertify, maintain, and repair its PV/S to be
a significant management control weakness.

Audit Field Work

We performed audit field work at Stennis from July 2002 through October 2003 in
accordance with generally accepted government auditing standards.




                                            12
  Appendix D. NASA Policy, Procedures, and Guidelines for Pressure
            Vessel and Pressurized Systems Management

NASA and Stennis Space Center (Stennis) have policies, procedures, and guidelines for
managing the Agency’s pressure vessels and pressurized systems (PV/S). NASA Policy
Directive 8710.5, “NASA Safety Policy for PV/S,” March 17, 1998, outlines NASA’s
program policy for ensuring the structural integrity of PV/S and minimizing associated
mishap potential. NASA Procedures and Guidelines 1700.6A, “Guide for In-service
Inspection of Ground-Based PV/S – with changes 1-8,” July 13, 2000, establishes an
outline of in-service inspection and recertification procedures for ground-based, unfired
PV/S; provides baseline inspection and recertification time intervals; and identifies
documentation requirements for PV/S certification and recertification.

NASA Policy Directive 8710.5. The directive requires that NASA Centers:

   •   Establish a certification/recertification process for all ground-based PV/S to
       ensure their safe and reliable operation.

   •   Ensure that all pressure vessels, pressurized components, and pressurized systems
       are operated, periodically inspected, maintained, repaired, and certified/recertified
       in accordance with applicable codes, standards, guides, and Federal and State
       regulations.

   •   Prepare and periodically update the certification documentation for each PV/S in
       accordance with an established schedule.

   •   Establish a configuration management system for PV/S, and maintain and update
       PV/S documentation as modifications are made and as new systems come online.
       The configuration management system shall ensure that the documentation
       always reflects the current as-operated configuration of the PV/S.

The Directive assigns responsibility to the Pressure Systems Manager for
(1) implementing the requirements of NASA Policy Directive 8710.5; (2) establishing
and maintaining cognizance of all requirements and activities for PV/S in-service
inspection and analysis, certification, and recertification; (3) establishing requirements
for PV/S in-service inspection and analysis, certification, recertification, repairs,
modifications, and configuration management; and (4) serving as the authority and
technical expert for all PV/S matters.

NASA Procedures and Guidelines 1700.6A. The guide states that through surveillance
and correction of in-service deterioration, NASA will maintain a safe working
environment for Agency and contractor personnel, safety for the public sector, and
protection against loss of capital investment.




                                             13
Appendix E. Management’s Response




               14
     Appendix E




15
Appendix E




             16
                      Appendix F. Report Distribution

National Aeronautics and Space Administration Headquarters

A/Administrator
AD/Deputy Administrator
ADI/Associate Deputy Administrator for Institutions and Asset Management
ADT/Associate Deputy Administrator for Technical Programs
AA/Chief of Staff
AB/Associate Deputy Administrator
B/Deputy Chief Financial Officer for Financial Management
B/Deputy Chief Financial Officer for Resources (Comptroller)
BF/Director, Financial Management Division
G/General Counsel
H/Assistant Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Assistant Administrator for Management Systems
JM/Director, Management Assessment Division
L/Assistant Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
Q/Associate Administrator for Safety and Mission Assurance

NASA Advisory Officials

Chair, NASA Aerospace Safety Advisory Panel

NASA Centers

ARC/D/Director, Ames Research Center
DFRC/X/Director, Dryden Flight Research Center
GRC/0100/Director, John. H. Glenn Research Center at Lewis Field
GSFC/100/Director, Goddard Space Flight Center
JPL/Director, NASA Management Office
JSC/AA/Director, Lyndon B. Johnson Space Center
KSC/AA/Director, John F. Kennedy Space Center
KSC/CC/Chief Counsel, John F. Kennedy Space Center
LaRC/106/Director, Langley Research Center
MSFC/DA01/Director, George C. Marshall Space Flight Center
SSC/AA00/Director, John C. Stennis Space Center




                                        17
Appendix F

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Managing Director, Acquisition and Sourcing Management Team, General Accounting
 Office
Senior Professional Staff Member, Senate Subcommittee on Science, Technology, and
 Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                         18
                  NASA Assistant Inspector General for Auditing
                                 Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing
our reader survey? For your convenience, the questionnaire can be completed
electronically through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html
or can be mailed to the Assistant Inspector General for Auditing; NASA Headquarters,
Code W, Washington, DC 20546-0001.


Report Title: Stennis Space Center’s Pressure Vessel and Pressurized System Program
              Needs Significant Improvements

Report Number:                                         Report Date:


Circle the appropriate rating for the following statements.

                                                      Strongly                                Strongly
                                                      Agree      Agree   Neutral   Disagree   Disagree   N/A
1.   The report was clear, readable, and logically       5         4       3          2           1      N/A
     organized.
2.   The report was concise and to the point.            5         4       3          2          1       N/A
3.   We effectively communicated the audit               5         4       3          2          1       N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5         4       3          2          1       N/A
     support the finding(s) in a balanced and
     objective manner.

Overall, how would you rate the report?

#     Excellent         #    Fair
#     Very Good         #    Poor
#     Good
If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

   #   Congressional Staff                 #    Media
   #   NASA Employee                       #    Public Interest
   #   Private Citizen                     #    Other:
   #   Government:            Federal:             State:         Local:


May we contact you about your comments?

Yes: ______                                 No: ______
Name: ____________________________
Telephone: ________________________


Thank you for your cooperation in completing this survey.
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for
Auditing at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Auditing. Ideas and requests can also be mailed to:

       Assistant Inspector General for Auditing
       Code W
       NASA Headquarters
       Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at
(800) 424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form;
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential,
upon request, to the extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.


Major Contributors to the Report
Kevin J. Carson, Director, Office of Audits (OA) Safety and Security

Sandy Massey, Associate Director, OA Safety and Security

Lamar Brickhouse, Auditor

Gene Lindley, Auditor

Ron Yarbrough, OA Safety and Occupational Health Manager
